No. 19-247

3Jn mbe

~upreme Qtourt of tbe fflntteb ~tates
CITY OF BOISE,

v.

Petitioner,

ROBERT MARTIN, LAWRENCE LEE SMITH, ROBERT ANDERSON,
JANET F. BELL, PAMELA S. HAWKES, AND BASILE. HUMPHREY,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE NINTH CmCUIT

BRIEF IN OPPOSITION
CERTIFICATE OF SERVICE

I, Michael E. Bern, counsel of record for Respondents Robert Martin, Lawrence
Lee Smith, Robert Anderson, Janet F. Bell, Pamela S. Hawkes, and Basil E.
Humphrey and a member of the Bar of this Court, hereby certify that on the 25th day
of October, 2019, I caused to be served three (3) copies of the Brief in Opposition in
the above-referenced case by U.S. first-class mail, postage prepaid, upon the counsel
for Petitioner as listed below:
Theane E. Kapur
Gibson, Dunn and Crutcher, LLP
333 South Grand Ave.
48th Floor
Los Angeles, CA 90071
(213) 229-7726
tevangelis@gibsondunn.com

Counsel for Petitioner

Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Brief in Opposition was transmitted to counsel for Petitioner at the
email address indicated above.
.

.

I further certify that all parties required to be served have been served.

By

A .LJ If-&,. (#/)I

MICHAELE. BERN
LATHAM & WATKINS LLP

555 Eleventh Street NW
Suite 1000
Washington, DC 20004
(202) 637-2200
michael. bern@lw.com

Counsel for Respondents

2

